TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Enterprise Systems Management
                   Program Is Making Progress to Improve
                  Service Delivery and Monitoring, but Risks
                                   Remain



                                      September 12, 2008

                              Reference Number: 2008-20-161




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                              September 12, 2008


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Enterprise Systems Management Program Is
                              Making Progress to Improve Service Delivery and Monitoring, but
                              Risks Remain (Audit # 200720039)

 This report presents the results of our review to assess the efficiency and effectiveness of the
 Enterprise Systems Management (ESM) organization implementation and strategy. This review
 was part of our Fiscal Year 2008 audit plan for reviews of the Internal Revenue Service’s (IRS)
 Modernization and Information Technology Services organization activities.

 Impact on the Taxpayer
 The IRS has begun an ESM initiative to improve the effectiveness and efficiency of managing
 computer systems operations and the availability of business systems services on an
 enterprise-wide basis. The initiative is making progress toward accomplishing its goals.
 However, we found that the ESM initiative incurred schedule slippage and $491,952 in
 additional costs. By improving management practices and controls, this initiative could make
 better use of taxpayer dollars by reducing the frequency and duration of computer system
 outages, improve service availability for customers, and reduce IRS costs associated with owning
 and managing software tools.

 Synopsis
 The overall strategic direction for the ESM organization is to be an enterprise-level organization
 with centralized control over software tools and processes1 based upon Information Technology

 1
  ESM-related software tools and processes are used to provide computer systems support and services such as tool
 administration, systems monitoring, and change control.
                   The Enterprise Systems Management Program Is Making Progress
                     to Improve Service Delivery and Monitoring, but Risks Remain



Infrastructure Library concepts.2 To accomplish this strategy, the following three ESM projects
were established: End-to-End Business Systems Monitoring Project; Tools Centralization and
Consolidation Project; and Organization and Operations Design Project.
In June 2007, the IRS began the process of making organizational changes to improve service
delivery effectiveness and efficiency. The ESM organization maintains a useful interactive web
site where IRS personnel can obtain the results and reports of its monitoring activities. Overall,
the three ESM projects are making progress toward the goals of providing better service and
reducing costs. However, additional work is needed to improve ESM organization management
practices and controls.
The IRS did not always provide funding for contractor support for the ESM projects in a timely
manner. Funding for contractor support lapsed in July 2007 and a subsequent contract was not
awarded until August 29, 2007. Management commented that it took approximately 2 months to
get the new contractors familiar with the work previously completed. We reviewed contractor
invoices from September 4 through October 31, 2007 and determined that the IRS spent
$491,952 just to get the new contractors familiar with what had been previously provided.
Subsequently, the Chief Information Officer approved $875,000 for ESM contractor support
through May 2008. However, as of June 26, 2008, additional funding had not been approved.
IRS management stated that funding problems occurred because the demand for funds is always
much greater than the supply, and funding requirements are based on both available resources
and IRS project prioritization.
The ESM projects did not always have adequate executive steering committee oversight to
ensure that issues and risks were resolved in a timely manner. It was not clear which
organization was responsible for overseeing the ESM projects. ESM organization management
stated that the Information Technology Service Management organization provided oversight of
the ESM projects based on a verbal agreement. However, this organization’s management
advised us that the Infrastructure Executive Steering Committee provided the formal governance
for the ESM projects. Currently, the ESM initiative is scheduled to go before the Infrastructure
Executive Steering Committee in July 2008.
In addition, significant ESM project decisions and events were not always documented. For
example, the End-to-End Business Systems Monitoring Project did not have any written
documentation showing the four specific applications recommended for future work or to
support who approved the applications and when they were approved because the decisions were
verbal. In addition, the tool subsets selection process and changes to the selection process were
not documented. During the audit, management implemented corrective actions to address the
documentation issue.



2
    See Appendix V for a glossary of terms.
                                                                                                     2
              The Enterprise Systems Management Program Is Making Progress
                to Improve Service Delivery and Monitoring, but Risks Remain



The Tools Centralization and Consolidation Project is collecting data on software tools within
the Modernization and Information Technology Services organization and entering the data into
a database called the Tool Repository. As of April 15, 2008, the Tool Repository listed
240 tools. The numbers of licenses owned and/or used were incomplete for 112 (47 percent) of
the tools. The number of licenses owned and/or used is not readily available or easily accessible
because the IRS does not have a database or software license tracking tool to assist in identifying
and tracking software used on its servers. Without the ability to track software licenses and
distribution, the IRS risks paying for additional licenses when unused licenses were available for
distribution or paying for licenses that are not needed.

Recommendations
The Chief Information Officer should ensure that 1) the ESM projects receive timely and
sufficient funding or revise the projects’ tasks, 2) the ESM projects are governed by the
Infrastructure Executive Steering Committee, 3) software tools are acquired to track licenses of
software used agencywide on servers to track and better evaluate software usage and related
costs, and 4) all tools meeting ESM software tool criteria are approved by the ESM organization
through the IRS Web Request Tracking System.

Response
IRS management agreed with all of our recommendations. Corrective actions taken or planned
include 1) modifying ESM project tasks to align with the available funds, 2) placing the ESM
projects under the governance of the Infrastructure Executive Steering Committee, 3) acquiring
and implementing the IBM Tivoli License Compliance Manager product to track and manage all
software licenses used agency-wide on servers, and 4) taking the necessary actions to place the
ESM organization in the IRS Web Request Tracking System approval path. Management’s
complete response to the draft report is included as Appendix VI.

Office of Audit Comment
In the IRS response to the draft report, management provided a comment acknowledging
ramp-up funds were expended on the ESM project from September 4, 2007, through
October 31, 2007. However, upon further review, the IRS estimate for this cost is approximately
one third of the amount stated in the report.
The audit report was prepared based on the information the IRS provided to us during the audit.
The audit results were provided to IRS management on several occasions and we made revisions
to the report based on the IRS comments. After we revised the report to incorporate the IRS
comments, we obtained executive agreement to the report at our closing conference.

                                                                                                  3
              The Enterprise Systems Management Program Is Making Progress
                to Improve Service Delivery and Monitoring, but Risks Remain



Subsequently, the IRS advised us that it performed an additional review of the ramp-up cost and
the amount of a new estimate. We did not make any additional changes to the report because we
did not independently validate the new information submitted after the completion of the audit.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                              4
                    The Enterprise Systems Management Program Is Making Progress
                      to Improve Service Delivery and Monitoring, but Risks Remain




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Enterprise Systems Management Organization Has Been
          Deployed .......................................................................................................Page 3
          Funding for Contractor Support Was Not Always Provided in a
          Timely Manner..............................................................................................Page 4
                    Recommendation 1:........................................................Page 5

          Project Governance Needs to Be Improved..................................................Page 5
                    Recommendation 2:........................................................Page 7

          Significant Decisions and Events Were Not Always Documented ..............Page 7
          Controls Over Licenses for Software on Servers and Software Tool
          Purchases Should Be Improved ....................................................................Page 9
                    Recommendations 3 and 4: ..............................................Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measure ................................................................Page 17
          Appendix V – Glossary of Terms .................................................................Page 18
          Appendix VI – Management’s Response to the Draft Report ......................Page 20
        The Enterprise Systems Management Program Is Making Progress
          to Improve Service Delivery and Monitoring, but Risks Remain




                        Abbreviations

CRSD              Customer Relationship and Service Delivery
ESM               Enterprise Systems Management
IRS               Internal Revenue Service
ITSDM             Information Technology Service Delivery Management
MITS              Modernization and Information Technology Services
                 The Enterprise Systems Management Program Is Making Progress
                   to Improve Service Delivery and Monitoring, but Risks Remain




                                            Background

The Internal Revenue Service (IRS) is striving to
improve service to taxpayers, increase the effectiveness        The overall strategic direction
                                                              for the ESM organization is to be
and efficiency of agency operations, and provide greater       an enterprise-level organization
value to the Federal Government. To assist the IRS in            with centralized control over
accomplishing these objectives, the Modernization and           software tools and processes.
Information Technology Services (MITS) organization
has begun an Enterprise Systems Management (ESM)
initiative to improve the effectiveness and efficiency of managing computer systems operations
and the availability of business systems services on an enterprise-wide basis. This initiative will
make better use of taxpayer dollars by reducing the frequency and duration of computer system
outages, improving service availability for customers, and reducing IRS costs associated with
owning and managing software tools.
The overall strategic direction for the ESM organization is to be an enterprise-level organization
with centralized control over software tools and processes1 based upon Information Technology
Infrastructure Library concepts.2 Specifically, the following three ESM projects were established
to implement this strategy:
    •   End-to-End Business Systems Monitoring Project – An initiative to address enterprise
        monitoring from an Information Technology Service Management Service Delivery
        perspective, addressing both qualitative and quantitative issues with business systems
        availability and performance monitoring. The overall goal is to improve the incident
        (e.g., system outages) management capabilities of the service and to better understand the
        real-time health of business systems. This project was established in October 2006.
    •   Tools Centralization and Consolidation Project – An initiative to develop a strategy and
        plan for the centralization and consolidation of software tools used across the MITS
        organization into a single ESM organization. This effort will also develop and maintain
        an ESM Tool Repository. This project was established in October 2006.
    •   Organization and Operations Design Project – An initiative to implement an
        enterprise-focused ESM organization that leverages Information Technology
        Infrastructure Library concepts to provide end-to-end monitoring services and enterprise
        tools management. This project was established September 2007.


1
  ESM-related software tools and processes are used to provide computer systems support and services such as tool
administration, systems monitoring, and change control.
2
  See Appendix V for a glossary of terms.
                                                                                                          Page 1
              The Enterprise Systems Management Program Is Making Progress
                to Improve Service Delivery and Monitoring, but Risks Remain



Another MITS organization initiative to improve service management is the Information
Technology Service Management Program. The Information Technology Service Management
Executive Steering Committee is responsible for governing the Program and championing the
initiative within the MITS organization and the IRS. The Information Technology Service
Management Program initiative improves the way information technology organizations deliver
and support information technology services so they are focused on the business requirements.
This initiative is also based on Information Technology Infrastructure Library concepts. In
January 2008, the Information Technology Service Management organization was expanded to
include Customer Relationship Management. With the expansion of the organization’s scope,
the name was changed to the Customer Relationship and Service Delivery (CRSD) organization
and is led by an Associate Chief Information Officer. This organization will work with the other
MITS organizations to implement a comprehensive and consistent approach to service delivery.
This review was performed at the MITS organization offices in New Carrollton, Maryland;
Memphis, Tennessee; and Martinsburg, West Virginia, during the period September 2007
through July 2008. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




                                                                                         Page 2
              The Enterprise Systems Management Program Is Making Progress
                to Improve Service Delivery and Monitoring, but Risks Remain




                                   Results of Review

The Enterprise Systems Management Organization Has Been
Deployed
In June 2007, the IRS began the process of making organizational changes to improve service
delivery effectiveness and efficiency. The redesigned ESM organization includes the Enterprise
Service Desk organization and the Systems Management, Reporting, and Tools organization,
which was created by realigning the prior ESM organization groups shown in Figure 1.
                      Figure 1: Initial ESM Redesigned Organization

                                      ESM Organization

                                                                             Enterprise
                Systems Management, Reporting, and Tools
                                                                            Service Desk
       Production        Process       Process      Enterprise Analysis
        Support         Support I     Support II      and Reporting
   Source: The ESM project team.

The Enterprise Service Desk provides a central point for reporting, tracking, and resolving
information technology problems across the enterprise. This review focused on the Systems
Management, Reporting, and Tools organization. The mission statements for the redesigned
ESM organization were rewritten after the redesign in June 2007, but the roles and
responsibilities of the personnel in the four subordinate groups of the Systems Management,
Reporting, and Tools organization did not change.
The Systems Management, Reporting, and Tools organization maintains a useful interactive web
site enabling personnel to access detailed information on workstations and reports of its
monitoring activities. The reports describe the performance “health” of servers, desktops, and
laptops, as well as identify mislabeled systems.
IRS executives and managers should continuously evaluate the effectiveness and efficiency of
their organizations; plan, propose, and obtain review and approval of reorganizations as needed;
and evaluate the effects of reorganization. The Office of Management and Budget
Circular A-130, Management of Federal Information Resources, states that agencies should seek
opportunities to improve the effectiveness and efficiency of Federal Government programs
through work process redesign and the judicious application of information technology.
Although the June 2007 reorganization is not anticipated to be the final ESM reorganization,

                                                                                         Page 3
              The Enterprise Systems Management Program Is Making Progress
                to Improve Service Delivery and Monitoring, but Risks Remain



overall the three ESM projects are making progress toward the goals of providing better service
and reducing costs.

Funding for Contractor Support Was Not Always Provided in a Timely
Manner
The IRS requested contractor support to evaluate, design, and plan an infrastructure that can
support the IRS’ business requirements for monitoring and managing business services.
However, the IRS did not always provide funding in a timely manner for contractor support for
the ESM projects, which resulted in schedule slippage and additional costs.
ESM organization management obtained funding for contractor support from the Chief
Information Officer’s project funding account. Additional funding was obtained from the End
User Equipment and Services organization when it authorized the realignment of $88,844 to
cover contractor services through June 30, 2007. However, funding for contractor support lapsed
in July 2007 and work was put on hold pending the award of the new contract.
A new contract was awarded on August 29, 2007. However, management commented that it
took approximately 2 months to get the new contractors familiar with the work previously
completed. We reviewed contractor invoices from September 4 through October 31, 2007, and
determined that the IRS spent $491,952 just to get the new contractors familiar with what had
been previously provided. The potential risk of additional
project delays due to funding and budget issues was reported to
IRS executives in November 2007.                                     Funding for ESM project
                                                                     contractor support was
The three ESM project teams provide weekly status reports to          provided from several
MITS organization executives to raise issues and risks affecting     sources. However, the
the ESM initiative. For example,                                    delayed funding resulted
                                                                    in schedule slippage and
   •   In December 2007, the Organization and Operations              $491,952 in additional
       Design Project began reporting that its schedule,                     costs.
       deliverables, and/or cost might be affected by its funding
       being scheduled to end in February 2008--prior to the
       completion of planned activities. In February 2008, activity was underway to close down
       contractor support due to the lack of funding.
   •   In November 2007, the End-to-End Business Systems Monitoring Project began
       reporting that its schedule, deliverables, and/or cost had been affected by insufficient
       funding. On February 19, 2008, it was reported that the current funding would carry the
       project only through the end of February 2008.
Although the project was listed as a critical unfunded need, in January 2008, the MITS
Enterprise Governance Committee did not approve funding for ESM project contractor support
because of competing priorities and the unavailability of funds. Subsequently, the Chief
                                                                                          Page 4
                  The Enterprise Systems Management Program Is Making Progress
                    to Improve Service Delivery and Monitoring, but Risks Remain



Information Officer approved $875,000 for ESM contractor support through May 2008. The
funds identified were anticipated software contract savings to be received by the IRS. As of
June 26, 2008, additional funding had not been approved.
The Chief Information Officer is responsible for managing information resources and technology
management and the IRS long-range objectives and strategies for improving tax administration
through modernizing the tax administration system. The IRS indicated that the ESM initiative
had problems in obtaining funding because the demand for funding is always much greater than
the supply, and funding requirements are based on both available resources and IRS project
prioritization. As a result of not funding the ESM initiative in a timely manner, the IRS
experienced schedule slippage and $491,952 in additional costs that could have been more
efficiently used.3

Recommendation
Recommendation 1: The Chief Information Officer should ensure that the ESM projects
receive timely and sufficient funding, or revise the projects’ tasks to ensure efficient use of
contractor support funds and continuity of funding.
          Management Response: IRS management agreed with this recommendation and
          will modify ESM project tasks to align with the available funds.
          Office of Audit Comment: In the IRS response to the draft report, management
          provided a comment acknowledging ramp-up funds were expended on the ESM project
          from September 4, 2007, through October 31, 2007. However, upon further review, the
          IRS estimate for this cost is approximately one third of the amount stated in the report.
          The audit report was prepared based on the information the IRS provided to us during the
          audit. The audit results were provided to IRS management on several occasions and we
          made revisions to the report based on the IRS comments. After we revised the report to
          incorporate the IRS comments, we obtained executive agreement to the report at our
          closing conference. Subsequently, the IRS advised us that it performed an additional
          review of the ramp-up cost and the amount of a new estimate. We did not make any
          additional changes to the report because we did not independently validate the new
          information submitted after the completion of the audit.

Project Governance Needs to Be Improved
The ESM projects did not always have adequate executive steering committee oversight to
ensure that issues and risks were resolved in a timely manner. ESM management stated that the


3
    Appendix IV provides a summary of the outcome measure.

                                                                                              Page 5
                 The Enterprise Systems Management Program Is Making Progress
                   to Improve Service Delivery and Monitoring, but Risks Remain



ESM Executive Steering Committee initially provided oversight of the three ESM projects.
However, management could not provide evidence of the oversight.
In June 2007, the Chief Information Officer established the Information Technology Service
Management organization to provide oversight of the MITS organization-wide Information
Technology Infrastructure Library related processes (e.g., Incident Management, Problem
Management, and Tools Assessment). However, the organization has undergone several name
changes and is now referred to as the Information Technology Service Delivery
Management (ITSDM) organization. The ITSDM and ESM organizations provided us with
inconsistent explanations about ESM project governance. For example:
    •    ESM organization management stated that the Executive Steering Committee joined the
         ITSDM organization in September 2007 and there was a verbal agreement with the
         former Director, ITSDM, that the ITSDM organization would provide oversight for the
         three ESM projects, given that the members served on each Executive Steering
         Committee. However, the ITSDM organization was not aware of the verbal agreement
         because the former Director retired and the agreement was not documented in meeting
         minutes or other written communication.
    •    In March 2008, the Director, ITSDM, stated that the ITSDM organization did not provide
         oversight for the ESM projects. Instead, the Infrastructure Executive Steering Committee
         provided the formal governance for the ESM projects. The Director explained that the
         ESM project teams were brought in regularly at the ITSDM organization meetings for
         status briefings solely for informational purposes. However, ESM organization
         management stated that the Infrastructure Executive Steering Committee had not
         provided oversight of the three ESM projects.
         We reviewed the Infrastructure Executive Steering Committee meeting minutes from
         March 14, 2007, through June 11, 2008. The only mention of the ESM projects was from
         the December 3, 2007, ad-hoc meeting to prioritize the unfunded budget requests. The
         minutes show the ESM project contractor support was ranked 13th in the Infrastructure
         Executive Steering Committee priority ranking.
The Clinger-Cohen Act of 19964 states that agencies shall develop a process for analyzing,
tracking, and evaluating the risks and results of all major capital investments made by an
executive agency for information systems. The IRS implemented an Enterprise Governance
Model for project and program oversight. Governance bodies typically respond to immediate
needs such as decision-making; risks; managing the project baselines; cost, schedule, and scope


4
 (Federal Acquisition Reform Act of 1996) (Information Technology Management Reform Act of 1996),
Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                             Page 6
              The Enterprise Systems Management Program Is Making Progress
                to Improve Service Delivery and Monitoring, but Risks Remain



variances; and actions essential to resolving program or project problems affecting the
achievement of strategic goals.
ESM organization management stated that the ESM project issues and risks were not reported to
the Infrastructure Executive Steering Committee because they were discussed in briefings with
the Chief Information Officer and MITS organization executives. We were provided the
documentation (dated May 2, 2007) used at the briefings. The documentation included the status
of completed and planned work for the ESM projects. However, there were no meeting minutes
to document the discussions. Without the proper amount of executive oversight, the IRS
increases the risk that the three ESM projects will incur additional costs and schedule slippage.
Management Action: To improve the governance process over the ESM projects, the Director,
ITSDM, was asked to lead the ESM projects beginning in December 2007. The Director
subsequently became the Deputy Director, CRSD. Management indicated that the Deputy
Director, CRSD, would continue to oversee the ESM projects to ensure that the projects proceed
in the right direction and funding needs are reported. In June 2008, the Deputy Director, CRSD,
was reassigned to become the Associate Chief Information Officer, Enterprise Operations, but is
still responsible for overseeing the three ESM projects. In addition, a new request for
organizational change is being submitted for approval for the ESM organization to become a part
of the Enterprise Operations organization, with an anticipated effective date of October 1, 2008.
The ESM initiative is also scheduled to be presented to the Infrastructure Executive Steering
Committee in July 2008.

Recommendation
Recommendation 2: The Chief Information Officer should place ESM projects under the
governance of the Infrastructure Executive Steering Committee to ensure that risks and issues are
resolved in a timely manner.
       Management Response: IRS management agreed with this recommendation. The
       ESM projects are under the governance of the Infrastructure Executive Steering
       Committee to ensure risks and issues are resolved in a timely manner.

Significant Decisions and Events Were Not Always Documented
Significant decisions and events were not documented and included in monthly project status
reports, which resulted in increased risks of miscommunication, responsible parties not being
held accountable, and actions not being implemented in a timely manner. For example, the
End-to-End Business Systems Monitoring Project team did not have any written documentation
showing the four specific applications they recommended for future work or to support who
approved the applications and when they were approved because the decisions were verbal.


                                                                                          Page 7
              The Enterprise Systems Management Program Is Making Progress
                to Improve Service Delivery and Monitoring, but Risks Remain



The Tools Centralization and Consolidation Project also lacked documentation. The tool subsets
selection process and changes to the selection process were not documented. The Tools
Centralization and Consolidation Project team had begun the process to prioritize the tools for
centralization, but this process was replaced by discussions with the ITSDM Executive Steering
Committee. The selections were based on software tools that were needed or would soon be
needed by other MITS organization projects, which are in accordance with the Tools Project
strategy of centralizing tools based on business priorities. However, none of the activities or
decisions leading to the final selection were documented. The undocumented discussions and
decisions included:
   •   The Tools Centralization and Consolidation Project’s discussions with the ITSDM
       organization.
   •   The justification for selecting the tool subsets.
   •   The tool subsets recommended by the Tools Centralization and Consolidation Project and
       presented to the Chief Information Officer and Associate Chief Information Officers.
   •   The tool subsets selected and approved by the Chief Information Officer and Associate
       Chief Information Officers.
The ESM organization and the ITSDM organization also had conflicting accounts about how the
tool recommendations were presented and how the selections were made.
The Government Accountability Office Standards for Internal Control in the Federal
Government states that the entire process or life cycle of an event from the initiation and
authorization should be promptly recorded to maintain its relevance and value to management in
controlling operations and making decisions. Insufficient or lack of documentation of key
decisions increases the risk for miscommunication and the risks that responsible parties are not
held accountable, and that actions are not implemented in a timely manner. Also, when new
management and staff are assigned to the ESM projects, they will not have access to
documentation of key events and decisions that will help them understand the history and
changes in the projects. Without complete and accurate project management documentation, the
IRS increases the risk that the three ESM projects will incur additional costs and schedule
slippage.
Management Action: The ESM project team agreed with our observations and is now
documenting communications and meetings. We verified that meetings are now being
documented by reviewing the minutes from an ESM organization meeting held March 27, 2008.
Based on the management action, we are not making any recommendations regarding project
documentation.




                                                                                          Page 8
              The Enterprise Systems Management Program Is Making Progress
                to Improve Service Delivery and Monitoring, but Risks Remain



Controls Over Licenses for Software on Servers and Software Tool
Purchases Should Be Improved
The Tools Centralization and Consolidation Project is collecting data on software tools within
the MITS organization and entering the data into a database called the Tool Repository. The
Tool Repository includes information about the tools such as name, manufacturer, tool functions,
license and maintenance data and cost, users, and tool version. However, the IRS does not have
an efficient and effective means to determine the number of licenses owned or used for the
software on its servers. As a result, approximately 47 percent of the tools in the Tool Repository
were missing the information.
We surveyed IRS organizations outside of the MITS organization that owned or operated servers
to determine the tools used to monitor or manage its information technology systems, the process
for selecting and acquiring the tools, and the cost of the tools. Only three IRS organizations
outside of the MITS organization had such tools: the Counsel Information Systems Office, the
Criminal Investigation Division, and the Statistics of Income organization. All three
organizations stated that they consulted with the MITS organization prior to purchasing software
tools. The 3 organizations had 56 unique tools.
Nine of the 56 tools had names that were the same or similar to those in the Tool Repository.
We performed research and interviewed the Tools Centralization and Consolidation Project
Manager to determine whether the MITS organization had available licenses for the nine tools.
Based on our analysis, we determined that:
   •   One tool had available licenses and the IRS organization outside of the MITS
       organization was using these licenses.
   •   Three tools did not have any available licenses, so the IRS organization outside of the
       MITS organization purchased its own.
   •   Five tools did not have the information needed to determine the number of available
       licenses. The IRS organizations outside of the MITS organizations stated that three of
       the five tools were obtained through IRS enterprise license agreements. One tool was
       purchased by the MITS organization for an organization outside of the MITS
       organization. One tool was purchased by an organization outside of the MITS
       organization.
We also analyzed the entire Tool Repository to determine the completeness of license
information. As of April 15, 2008, the Tool Repository listed 240 tools. Figure 2 provides a
summary of tool software license information.




                                                                                           Page 9
               The Enterprise Systems Management Program Is Making Progress
                 to Improve Service Delivery and Monitoring, but Risks Remain



              Figure 2: License Information for Tool Software on Servers
  Licenses Owned         Licenses Used            Tool Count                          Notes
     Unknown                Unknown                94 (39.2%)
     Unknown                  Known                 1 (0.4%)
                                                                      The number of licenses owned
                                                                      for 11 of these 17 tools ranged
                                                                      from 100 to 130,000. Because
                                                                      the number of licenses used is
       Known                Unknown                17 (7.1%)
                                                                      unknown, an IRS organization
                                                                      outside of the MITS organization
                                                                      spent $4,815 to purchase its own
                                                                      copy of a tool.
                                                                      Number and percent of licenses
                                   Subtotal       112 (46.7%)
                                                                      with incomplete information.
                                                                      Number and percent of licenses
       Known                  Known               128 (53.3%)
                                                                      with complete information.
                                      Total            240
Source: Treasury Inspector General for Tax Administration analysis of the Tool Repository.

The Tools Centralization and Consolidation Project Manager is attempting to determine the
number of licenses owned and used for the tools that are missing information in order to update
the Tool Repository. However, the Project Manager has had difficulty finding the information
because the designated points of contact for the tools do not always have the requested
information. Additional manual research performed is inefficient and does not always identify
the information.
During our analysis of the software licenses, we found that organizations can purchase software
tools without the ESM organization’s knowledge. The Tools Centralization and Consolidation
Project Manager was aware of this and had reported it as a risk in a status report. In an effort to
reduce the risk, the Project Manager submitted a request to include in the Internal Revenue
Manual a requirement that the ESM organization be included as an approver for all purchase
requests meeting the software tool criteria. The request was submitted on November 1, 2007, but
is still under review, and must be approved by all stakeholders before the requirement is included
in the Internal Revenue Manual.
The Chief Information Officer is responsible for managing agency-wide information resources
and technology management and the IRS long-range objectives and strategies for improving tax
administration through modernizing the tax administration system. An organization’s ability to
more effectively manage its information technology environment depends on how effectively the

                                                                                                Page 10
              The Enterprise Systems Management Program Is Making Progress
                to Improve Service Delivery and Monitoring, but Risks Remain



information technology organization uses software tools. By centralizing and consolidating
tools, the IRS hopes to reduce costs associated with owning and managing software tools and
identify and develop standard tools to eliminate duplication and address any gaps in tool
functionality. Ensuring that the proper number of software licenses are purchased and
distributed to those who need them also helps to contain costs.
Without the ability to track software licenses and distribution, the IRS risks paying for unneeded
licenses for additional licenses when unused licenses were available for distribution. For
example, if there were 45 unused licenses for Spotlight® on Active Directory, the business unit
could have used them and avoided spending $4,815. The number of licenses owned and/or used
is not readily available or easily accessible because the IRS does not have a database or software
license tracking tool in place to assist in identifying and tracking software used on its servers.

Recommendations
The Chief Information Officer should:
Recommendation 3: Acquire software tools to track licenses of software used agency-wide
on servers to track and better evaluate software usage and related costs.
       Management Response: IRS management agreed with this recommendation. The
       IRS has acquired and will implement the IBM Tivoli License Compliance Manager
       product to track and manage all software licenses used agency-wide on servers in order to
       better evaluate software usage and related costs.
Recommendation 4: Ensure that all tools meeting ESM organization software tool criteria
and requested by all IRS organizations are submitted to the ESM organization for approval
through the IRS Web Request Tracking System.
       Management Response: IRS management agreed with this recommendation. The
       IRS will take the necessary actions to place the ESM organization in the IRS Web
       Request Tracking System approval path to ensure that requests meet the ESM
       organization’s software tool criteria.




                                                                                          Page 11
              The Enterprise Systems Management Program Is Making Progress
                to Improve Service Delivery and Monitoring, but Risks Remain



                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective was to assess the efficiency and effectiveness of the ESM organization
implementation and strategy. To accomplish this objective, we:
I.     Evaluated the effectiveness and efficiency in implementing the ESM organization.
       A. Evaluated the effectiveness and efficiency in implementing the initial ESM
          organization.
           1. Reviewed policies and procedures governing the establishment of the ESM
              organization.
           2. Determined whether key program management documents were prepared and
              approved.
           3. Determined whether the ESM organization obtained adequate resources and
              funding to implement the ESM strategy.
           4. Obtained a walkthrough of the Systems Management, Reporting, and Tools
              organization to determine how it provided and maintained the monitoring
              environment and tools.
       B. Evaluated the Organization and Operations Design Project efforts to implement an
          improved ESM organization.
           1. Interviewed ESM organization personnel to determine the mission, scope, and
              implementation timeline for the Organization and Operations Design Project and
              whether a Project Office was established and the governance process for
              overseeing the Project--for example, identify the executive steering committee
              responsible for this project.
           2. Determined whether key project documents were prepared and approved
              (e.g., Project Plan, Work Breakdown Structure, management approval).
           3. Interviewed ESM organization personnel to determine the process for and status
              in defining ESM organization personnel roles and responsibilities, organization
              structure, program governance, and service delivery.
           4. Identified and obtained, if available, Phase II work products and deliverables and
              determined whether they will be/were delivered in a timely manner (e.g., ESM
              Services Catalog, ESM Communication Strategy and Plan, ESM Process
              Integration Framework).
                                                                                         Page 12
                 The Enterprise Systems Management Program Is Making Progress
                   to Improve Service Delivery and Monitoring, but Risks Remain



II.     Evaluated the Tools Management Project Office efforts to ensure effective and efficient
        use of software tools1 through centralization and consolidation of the tools.
        A. Evaluated the effectiveness and efficiency of program and project management
           controls over the Tools Management Project Office.
             1. Reviewed policies and procedures governing the purchase of monitoring tools and
                the related licenses and maintenance contracts by the MITS organization and IRS
                organizations outside of the MITS organization.
             2. Determined how issues and risks were tracked, whether any issues were
                outstanding, and whether a risk mitigation plan was developed.
             3. Reviewed the Tools Management Project Plan and ESM Tools Centralization
                and/or Consolidation Plan.
        B. Evaluated the process for selecting software tools for centralization and
           consolidation.
             1. Interviewed ESM organization management to determine the process and criteria
                for selecting software tools for centralization and consolidation.
             2. Determined whether software tools were selected for centralization and/or
                consolidation and whether the tools selected met the selection criteria.
             3. Obtained an inventory of software tools used by IRS organizations outside of the
                MITS organization and compared the MITS inventory of monitoring tools to the
                IRS organizations outside of the MITS organization inventory of software tools to
                identify duplicate tools and whether the duplicate tools had licenses and
                maintenance contracts.
        C. For the duplicate software tools identified in Step II.B.3., determined whether cost
           savings could be realized if the IRS organizations outside of the MITS organization
           obtained or used tools available through the MITS organizations.
             1. Interviewed appropriate personnel (e.g., MITS organization and business unit
                personnel) to determine whether the duplicate tools identified have the capability
                to perform the same functionality required in both the MITS organization and the
                IRS organizations outside of the MITS organization and the process and analysis
                used in purchasing the duplicate software tools, the related licenses, and
                maintenance contracts, and whether the MITS organization was contacted prior to
                making these purchases.


1
 ESM-related software tools are used to provide systems support and services such as tool administration, systems
monitoring, and change control.
                                                                                                         Page 13
             The Enterprise Systems Management Program Is Making Progress
               to Improve Service Delivery and Monitoring, but Risks Remain



          2. Determined whether the MITS organization has a process in place to obtain
             agreement with the business units that MITS organization monitoring tools satisfy
             the business unit’s needs.
          3. Obtained the cost of the duplicate monitoring tools and the related licenses and/or
             maintenance contracts in the IRS organizations outside of the MITS organization
             and interviewed MITS organization personnel to determine whether cost savings
             could be realized if the IRS organizations outside of the MITS organization
             obtained or used tools available through the MITS organization.
III.   Evaluated the End-to-End Monitoring Project Office efforts to ensure effective and
       efficient End-to-End monitoring throughout the IRS.
       A. Evaluated the effectiveness and efficiency of program and project management
          controls over the End-to-End Monitoring Project Office.
          1. Interviewed ESM organization personnel to determine the project plan, process,
             and status in implementing End-to-End monitoring.
          2. Determined whether key project management documents were prepared and
             approved (e.g., business case, Project Plan, Work Breakdown Structure, etc.).
          3. Determined how issues and risks were tracked, whether any issues were
             outstanding, and whether a risk mitigation plan was developed.
       B. Determined whether the Modernized e-File End-to-End Proof of Concept was on
          schedule and whether it demonstrated a process for effective End-to-End monitoring.
IV.    We used the IRS Web Request Tracking System and the MITS Project Tracking System
       to obtain contract information on the software reviewed in this audit. Because we did not
       use the information to make projections, we did not validate the data on these systems.
       We received the ESM Tool Repository, which was in a Microsoft Excel spreadsheet. The
       data in the spreadsheet were entered from survey responses that were provided to the
       ESM team in written format and/or verbally. We did not request the survey responses to
       validate the data.




                                                                                        Page 14
             The Enterprise Systems Management Program Is Making Progress
               to Improve Service Delivery and Monitoring, but Risks Remain



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Scott Macfarlane, Director
Danny Verneuille, Audit Manager
Tina Wong, Senior Auditor
Linda Screws, Auditor
Suzanne Westcott, Auditor




                                                                                     Page 15
         The Enterprise Systems Management Program Is Making Progress
           to Improve Service Delivery and Monitoring, but Risks Remain



                                                                     Appendix III

                    Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Agency-Wide Shared Services OS:A
Chief, Criminal Investigation Division SE:CI
Chief Human Capital Officer OS:HC
Associate Chief Information Officer, End User Equipment and Services OS:CIO:EU
Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
Director, Office of Research, Analysis, and Statistics RAS
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T
       Commissioner, Wage and Investment Division SE:W
       Chief, Agency-Wide Shared Services OS:A
       Chief, Criminal Investigation Division SE:CI
       Chief Human Capital Officer OS:HC
       Director, Program Oversight Office OS:CIO:SM:PO
       Director, Office of Research, Analysis, and Statistics RAS




                                                                             Page 16
              The Enterprise Systems Management Program Is Making Progress
                to Improve Service Delivery and Monitoring, but Risks Remain



                                                                                Appendix IV

                                Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Actual; $491,952 (see page 4).

Methodology Used to Measure the Reported Benefit:
Because funding for contractor support lapsed in July 2007 and a new contract was not awarded
until August 29, 2007, new contractors were assigned to the ESM initiative. Management
commented that it took approximately 2 months to get the new contractors familiar with the
work previously completed. We reviewed contractor invoices from September 4 through
October 31, 2007, and determined that the IRS spent $491,952 to get the new contractors
familiar with the work previously completed on the ESM projects.




                                                                                         Page 17
              The Enterprise Systems Management Program Is Making Progress
                to Improve Service Delivery and Monitoring, but Risks Remain



                                                                          Appendix V

                                 Glossary of Terms

End-to-End Monitoring                    Managing all information technology
                                         component and subcomponent layers that exist
                                         in the IRS information technology operational
                                         environment.
Enterprise Governance Committee          The highest-level recommendation and
                                         decision-making body to oversee and enhance
                                         enterprise management of information systems
                                         and technology.
Information Technology Infrastructure    A series of books giving guidance--based on
Library                                  best practices--on the provision of quality
                                         information technology services and on the
                                         accommodation and environmental facilities
                                         needed to support information technology.
Modernized e-File                        A project to develop the modernized, web-based
                                         platform for filing approximately 330 IRS forms
                                         electronically.
Project Tracking System                  A web-based budget application, which includes
                                         contract information.
Server                                   A computer that carries out specific functions.
                                         For example, file servers store files, print
                                         servers manage printers, and network servers
                                         manage network traffic.
Spotlight® on Active Directory           Software used to monitor and troubleshoot
                                         problems on computers in Active Directory
                                         (a technology for administering and securing
                                         computer networks) environments.




                                                                                  Page 18
            The Enterprise Systems Management Program Is Making Progress
              to Improve Service Delivery and Monitoring, but Risks Remain



Web Request Tracking System          A web-based application that allows IRS
                                     personnel to prepare, approve, fund, and track
                                     requests for the delivery of goods and services.
                                     It also allows for electronic acceptance of items
                                     delivered and provides an electronic interface
                                     with the Automated Financial System for
                                     payment processing.




                                                                              Page 19
   The Enterprise Systems Management Program Is Making Progress
     to Improve Service Delivery and Monitoring, but Risks Remain



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 20
The Enterprise Systems Management Program Is Making Progress
  to Improve Service Delivery and Monitoring, but Risks Remain




                                                        Page 21
The Enterprise Systems Management Program Is Making Progress
  to Improve Service Delivery and Monitoring, but Risks Remain




                                                        Page 22
